One Citizens Plaza, 8th floor
Providence, RI 02903-1345
Telephone 401-274-7200
Fax 401-751-0604 / 351-4607
175 Federal Street
Boston, MA 02110-2210
Telephone 617-482-0600
Fax 617-482-0604
www.apslaw.com

September 9, 2019

Via Electronic Filing and Federal Express
Honorable Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543
Re:

Cranston Police Retirees Action Committee v. City of Cranston,
S.Ct No. 19-286

Dear Mr. Harris,
We represent the City of Cranston in the above-referenced matter. The petition for writ
of certiorari in this case was filed on August 30, 2019 and placed on the docket on September 4,
2019.
Under Rule 30.4 of the rules of this Court, the City of Cranston, through undersigned
counsel, respectfully moves for an extension of time to and including November 4, 2019 within
which to respond to the Petition for Writ of Certiorari filed by the Cranston Police Retirees’
Action Committee.
This extension is requested to complete preparation of the City’s response, which is
delayed because of the press of earlier cases assigned to myself and other attorneys handling this
matter. Further, I have some pre-planned personal days and previously-scheduled hearings in
other matters in the month of September. Finally, at our client’s request, we have been
consulting with practitioners of this Court to consider co-counsel for assistance in preparing the
City of Cranston’s submission to the Court.
Sincerely,

William K. Wray Jr.
cc: See Attached Service List

